CERTIFICATE OF SERVICE
NO. TBD
Miles Christian-Hart
Petitioner(s)
v.
Wells Fargo Bank, N.A.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the MILES
CHRISTIAN-HART PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Sara F. Holladay-Tobias
Emily Y. Rottmann
C.H. Houston, III
McGuireWoods LLP
50 North Laura Street
Jacksonville, Florida 32202
(904) 798-3200
stobias@mcguirewoods.com
erottmann@mcguirewoods.com
hhouston@mcguirewoods.com
Appellate Counsel for Wells Fargo Bank, N.A.

Charline Calhoun
Albertelli Law
P.O. Box 23028
Tampa, Florida 33623
(813) 221-4743
ccalhoun@albertellilaw.com
servealaw@albertellilaw.com
Trial Counsel for Wells Fargo Bank, N.A.

David M. Demarest, President
Sarasota Springs Community Association, Inc.
4210 Ruth Way
Sarasota, Florida 34232

Bora Kayan
1660 Ringling Blvd.
Second Floor
Sarasota, Florida 34236
(941) 861-7272
bkayan@scgov.net
Counsel for Sarasota County, Florida

Unknown Spouse of Miles Christian Hart n/k/a
Barbara Hart
3439 Belmont Blvd.
Sarasota, Florida 34232

Lucas DeDeus

August 9, 2019
SCP Tracking: Fox-4634 Higel Ave-Cover White

